APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the United States Court of
Appeals for the Eleventh Circuit
(September 26, 2019) . . . . . . . . . . App. 1
Appendix B Order Adopting Magistrate’s Report
and Recommendation in the United
States District Court, Southern
District of Florida
(May 31, 2019) . . . . . . . . . . . . . . . App. 7
Appendix C Report and Recommendation on
Amended Petition under 28 U.S.C.
§ 2254 for Writ of Habeas Corpus
(DE 5) in the United States District
Court, Southern District of Florida
(April 2, 2019) . . . . . . . . . . . . . . . App. 13
Appendix D O r d e r
Denying
Motion for
Reconsideration in the United States
Court of Appeals for the Eleventh Circuit
(October 28, 2019) . . . . . . . . . . . . App. 57

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12468-D
[Filed September 26, 2019]
________________________________________________
KEITH INCHIERCHIERE,
)
Petitioner-Appellant,
)
)
versus
)
)
FLORIDA DEPARTMENT OF CORRECTIONS,
)
ATTORNEY GENERAL OF THE STATE
)
OF FLORIDA,
)
Respondents-Appellees.
)
_______________________________________________ )
Appeal from the United States District Court
for the Southern District of Florida
ORDER:
Keith Inchierchiere is a Florida prisoner serving an
840-month total sentence for burglary of a dwelling
with an assault or armed battery and second-degree
murder with a deadly weapon. Mr. Inchierchiere seeks
a certificate of appealability (“COA”), in order to appeal
the District Court’s denial of his 28 U.S.C. § 2254
habeas corpus petition. Mr. Inchierchiere argues (1) his
chosen counsel was ineffective for not appearing on the
day of trial to request a continuance, and (2) his public

App. 2
defender was ineffective for misadvising him about his
sentencing exposure and the trial judge’s reputation.
A COA may issue “only if the applicant has made a
substantial showing of the denial of a constitutional
right.” Miller-El v. Cockrell, 537 U.S. 322, 327, 123
S. Ct. 1029, 1034 (2003); see 28 U.S.C. § 2253(c)(2). An
applicant for a habeas petition meets this standard by
showing that “reasonable jurists could debate whether
(or, for that matter, agree that) the petition should
have been resolved in a different manner or that the
issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel,
529 U.S. 473, 484, 120 S. Ct. 1595, 1603-04 (2000).
I.
A.
Reasonable jurists would not debate the District
Court’s denial of Mr. Inchierchiere’s claim for
ineffective assistance of counsel. Under Strickland v.
Washington, 466 U.S. 668, 694, 131 S. Ct. 733, 739
(1984), a defendant can establish an ineffective
assistance claim by showing his “counsel’s performance
fell below an objective standard of reasonableness,”
Padilla v. Kentucky, 559 U.S. 356, 366, 130 S. Ct. 1473,
1482 (2010) (quotation marks omitted), and “a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different,” Strickland, 466 U.S. at 694,
104 S. Ct. at 2068. A “reasonable probability” is one
“sufficient to undermine confidence in the outcome.” Id.
Reasonable jurists could not disagree as to whether
Mr. Inchierchiere’s retained counsel was ineffective

App. 3
under the Strickland test. We assume that failing to
show up for the first day of trial falls below an objective
standard of reasonableness. But under Strickland’s
second prong, Mr. Inchierchiere cannot establish that
he was prejudiced by his private attorney’s failure to
appear and ask for a continuance. That is because Mr.
Inchierchiere received the competent assistance of his
public defender on the first day of his trial, who asked
the court for a continuance on Inchierchiere’s behalf.
Mr. Inchierchiere has not alleged his public defender
ineffectively represented him in making this request.
Mr. Inchierchiere argues he suffered Strickland
prejudice when his retained counsel failed to appear,
because Inchierchiere was wrongfully denied his
“counsel of choice.” See United States v. GonzalezLopez, 548 U.S. 140, 146, 126 S. Ct. 2557, 2562 (2006).
However, the record makes clear the trial court did not
wrongfully deny Mr. Inchierchiere the benefit of
retaining counsel. The trial court instructed
Mr. Inchierchiere to retain counsel—if he wished—by
July 24, 2009, but Inchierchiere did not attempt to
retain counsel until October 1, 2009, four days before
the start of trial. On the day of trial, the government
opposed continuing the trial because of the needs of
witnesses and the victim in the case. Gonzalez-Lopez
itself recognized that a trial court has “wide latitude in
balancing the right to counsel . . . against the demands
of its calendar,” and must sometimes “make scheduling
... decisions that effectively exclude a defendant’s first
choice of counsel.” Id. at 152, 126 S. Ct. at 2565–66.
Under these circumstances, the trial court did not
abuse its discretion by denying Mr. Inchierchiere a
continuance and depriving him of his choice of counsel.

App. 4
See Morris v. Slappy, 461 U.S. 1, 11–12, 103 S. Ct.
1610, 1616 (1983) (holding “broad discretion must be
granted to trial courts on matters of continuances”). On
this record, reasonable jurists would not debate that
Mr. Inchierchiere was not prejudiced because he could
not have his counsel of choice.
B.
Alternatively, a defendant can demonstrate his
counsel was ineffective if he was “complete[ly] . . .
denied counsel at a critical stage of his trial” or if
“counsel entirely fail[ed] to subject the prosecution’s
case to meaningful adversarial testing.” United States
v. Cronic, 466 U.S. 648, 659, 104 S. Ct. 2039, 2047
(1984). A Cronic ineffective assistance claim does not
require any showing of prejudice, see id., but “the
burden of proof under Cronic is a very heavy one,”
Stano v. Dugger, 921 F.2d 1125, 1153 (11th Cir. 1991).
Reasonable jurists would also not debate whether
Mr. Inchierchiere suffered ineffective assistance of
counsel under Cronic. Even accepting that the first day
of his trial was a critical stage, Mr. Inchierchiere was
not actually denied counsel at this stage, as his public
defender of three months was present and ready to try
his case. See Frazier v. Sec’y for Dep’t of Corr., 197 F.
App’x 868, 871–72 (11th Cir. 2006) (unpublished) (per
curiam) (concluding “there [wa]s no merit to
[defendant’s] claim that he suffered a ‘complete denial
of counsel’ or that counsel was not present at a critical
stage of the proceedings, as the court appointed
[counsel] to represent [the defendant] at the hearing”).
Reasonable jurists would not debate this conclusion.

App. 5
II.
Mr. Inchierchiere next argues his public defender
provided ineffective assistance of counsel, by telling
him he would get a 15-year sentence in exchange for
his plea and failing to mention the trial judge’s
reputation for harsh sentencing.
Here, reasonable jurists would not debate that Mr.
Inchierchiere’s public defender provided effective
assistance of counsel. Even if the public defender
misjudged Mr. Inchierchiere’s sentencing exposure or
did not mention the trial judge’s reputation for harsh
sentencing, Mr. Inchierchiere cannot show Strickland
prejudice. The record shows Mr. Inchierchiere knew his
full sentencing exposure when he entered his guilty
plea. Mr. Inchierchiere’s plea form and plea colloquy
informed him he could receive any sentence up to the
statutory maximum sentence of life. Mr. Inchierchiere
also testified at the plea hearing that he received no
promises of a particular sentence or range of sentences.
Mr. Inchierchiere’s testimony on these matters is
presumed to be true. See United States v. Medlock, 12
F.3d 185, 187 (11th Cir. 1994). Because Mr.
Inchierchiere was clearly advised by the plea
agreement and colloquy of his sentencing exposure, he
cannot show he suffered prejudice from his counsel’s
poor predictions of the sentence the trial judge would
impose. Beyond that, the public defender could have
reasonably recommended that Mr. Inchierchiere plead
guilty precisely because he knew the trial judge
sentenced harshly. See Martin v. Sec’y, Fl. Dep’t of
Corr., 699 F. App’x 866, 871–72 (11th Cir. 2017)
(unpublished) (per curiam) (recognizing admitting guilt

App. 6
as “a strategy designed to improve [the defendant’s]
chances of getting a lesser sentence before a judge
known for harsh sentencing”).
Because reasonable jurists would agree that Mr.
Inchierchiere received effective assistance of counsel,
Mr. Inchierchiere’s motion for a COA is DENIED.
/s/ Beverly B. Martin
UNITED STATES CIRCUIT JUDGE

App. 7

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 2:17-CV-14260ROSENBERG/MAYNARD
[Filed May 31, 2019]
________________________________________________
KEITH INCHIERCHIERE,
)
Petitioner,
)
)
v.
)
)
FLORIDA DEPARTMENT OF CORRECTIONS,
)
Respondent.
)
_______________________________________________ )
ORDER ADOPTING MAGISTRATE’S REPORT
AND RECOMMENDATION
This matter is before the Court upon Petitioner’s
Petition for Writ of Habeas Corpus, pursuant to 28
U.S.C. § 2254, DE 1, which was previously referred to
the Honorable Shaniek M. Maynard for a Report and
Recommendation on any dispositive matters, DE 3. On
April 2, 2019, Judge Maynard issued a Report and
Recommendation (the “Report”) recommending that the
Petition for Writ of Habeas Corpus be denied as to both
claims for relief. DE 19. Petitioner filed objections
through counsel on April 16, 2019. DE 20.

App. 8
The Court has conducted a de novo review of
Magistrate Judge Maynard’s Report and the record and
is otherwise fully advised in the premises. Upon
review, the Court finds Judge Maynard’s
recommendations to be well reasoned and correct.
The Court briefly addresses the Petitioner’s
objections here: First, Petitioner contests Judge
Maynard’s finding that there was no prejudice in
Petitioner’s privately-retained counsel’s failure to
appear at the trial docket call. Petitioner argues that
“he would have proceeded to trial had he not been
forced to proceed with the public defender and not
counsel of choice.” Obj., DE 20, 2. In addition,
Petitioner argues that he was “forced to make an
important decision without retained counsel of choice”
and that prejudice is “inherent and must be presumed”
in this circumstance. Id. In support of this proposition,
Petitioner cites to United States v. Gonzalez-Lopez, 548
U.S. 140 (2006). However, that case is distinguishable
and inapplicable here. There, the Government had
conceded that the trial court had erroneously denied the
petitioner his choice of counsel. Id. at 148. As a result,
the Court held that “[w]here the right to be assisted by
counsel of one’s choice is wrongly denied, therefore, it
is unnecessary to conduct an ineffectiveness or
prejudice inquiry to establish a Sixth Amendment
violation.” Id. at 148 (emphasis added). Nonetheless,
the Gonzalez-Lopez Court highlighted in conclusion
that:
We have recognized a trial court’s wide latitude
in balancing the right to counsel of choice
against the needs of fairness, and against the

App. 9
demands of its calendar. The court has,
moreover, an “independent interest in ensuring
that criminal trials are conducted within the
ethical standards of the profession and that legal
proceedings appear fair to all who observe
them.” None of these limitations on the right to
choose one’s counsel is relevant here. This is not
a case about a court’s power to enforce rules or
adhere to practices that determine which
attorneys may appear before it, or to make
scheduling and other decisions that effectively
exclude a defendant’s first choice of counsel.
However broad a court’s discretion may be, the
Government has conceded that the District
Court here erred when it denied respondent his
choice of counsel.
Id. at 152 (emphasis added). This case falls squarely
into the category of cases that the Gonzalez-Lopez
Court distinguished from Mr. Gonzalez-Lopez’s
situation. Here, Petitioner’s case was called up for the
docket call on October 5, 2009. See DE 6-1, 82. At that
time, Petitioner moved to continue his trial so that he
could obtain new counsel. See id. Petitioner’s public
defender was not aware until the morning of the docket
call that his client did not wish to proceed with him as
counsel. See id. at 84. Indeed, counsel stated on the
record that “it [the case] is ready [to go to trial].” The
State opposed the continuance – expressing that the
state’s attorney and the public defender had been
working closely to prepare for the trial, and that the
victim of the crime was present in court and wished to
proceed as well. See id. at 83–85. The trial court, Judge
Bauer, also pointed out at the docket call in October,

App. 10
2009 that the Petitioner had been cautioned in June,
when a different lawyer for Petitioner had withdrawn,
that Petitioner would need to identify a new lawyer
promptly. Id. at 84 (“THE COURT: Well, my question
would be back on June 23rd I think it was when Mr.
Kibbey withdrew, at that point, you were advised if
you’re going to hire a… new attorney, you must file the
notice of appearance by July 24, 2009. And then when
that didn’t occur, is when the Public Defenders…were
appointed. So it’s been three months since that order –
more than three months, but more than two months
since the – I don’t want to call it a cutoff date, because
it’s not a legal cutoff date, it was just my telling you to
hire somebody or to have them file a notice of
appearance by July 24th and that didn’t occur.”).
Under these circumstances, Gonzalez-Lopez does
not apply. Accordingly, Judge Maynard appropriately
considered Petitioner’s privately-retained counsel’s
failure to appear at the docket call under the
Strickland standard and concluded that there was no
prejudice to Petitioner – Petitioner’s appointed counsel
had been assigned to the case for months, had met with
his client multiple times, and was prepared to go to
trial if his client so chose.
Second, Petitioner argues that Judge Maynard was
incorrect in finding that there was no prejudice to
Petitioner or deficiency by counsel, when Petitioner’s
public defender advised Petitioner to enter into an open
guilty plea rather than proceed to trial. Petitioner
argues this was unreasonable advice, because the trial
court, Judge Bauer, has a “reputation as a harsh
sentencer,” which would have impacted the Petitioner’s

App. 11
willingness to plead guilty versus go to trial. The Court
agrees with Judge Maynard that even if Petitioner
were able to establish deficient performance by the
public defender, there was no prejudice to the
Petitioner in the alleged failure to warn him of the trial
court’s sentencing reputation.
As a final matter, the Court notes that Judge
Maynard conducted what could be considered a de novo
review of this case – although that is not the standard
required for Section 2254 petitions. Instead, as Judge
Maynard aptly notes, the purpose of Section 2254(d) is
to “guard against extreme malfunctions in the state
criminal justice systems, and not as a means of error
correction.” Downs v. Sec’y, Fla. Dep’t of Corrs., 738
F.3d 240, 256 (11th Cir. 2013) (quoting Greene v.
Fisher, 565 U.S. 34, 43 (2011)). Here, the Court is not
presented with such an “extreme malfunction” in the
state court system.
Thus, the Court agrees with Judge Maynard’s
analysis, and concludes that the Petition should be
denied for the reasons set forth above and in Judge
Maynard’s Report.
For the foregoing reasons, it is ORDERED AND
ADJUDGED as follows:
1. Magistrate Judge Maynard’s Report and
Recommendation [DE 19] is hereby
ADOPTED;
2. The Petition for Writ of Habeas Corpus
[DE 1] is DENIED;
3. A certificate of appealability is DENIED;

App. 12
4. The Clerk of Court shall CLOSE THIS
CASE.
DONE and ORDERED in Chambers, West Palm
Beach, Florida, this 31st day of May, 2019.
/s/ Robin L. Rosenberg
ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE
Copies furnished to Counsel of Record

App. 13

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-14260-CIVROSENBERG/MAYNARD
[Filed April 2, 2019]
________________________________________________
KEITH INCHIERCHIERE,
)
Petitioner,
)
)
v.
)
)
FLORIDA DEPARTMENT OF CORRECTIONS,
)
Respondent.
)
_______________________________________________ )
REPORT AND RECOMMENDATION ON
AMENDED PETITION UNDER 28 U.S.C. § 2254
FOR WRIT OF HABEAS CORPUS (DE 5)
THIS CAUSE comes before this Court upon an
Order of Reference and the above Petition. The record
before this Court consists of the Petitioner’s Appendix
(DE 6 & 16), the Respondent’s Response (DE 13) and
Appendix (DE 14), and the Reply (DE 17). This Court
recommends as follows:
BACKGROUND
1. On the night of December 5, 2008 the Petitioner
went over to the home of the victim where, according to

App. 14
the State, he pushed his way into the house and pinned
the victim against a closet door. The victim fought the
Petitioner back outside the house where the two
continued to struggle. Law enforcement responded to
the altercation. The victim’s father had called for help
when the Petitioner first pushed into the home. The
Petitioner was arrested at the scene. The Arrest
Affidavit starts at page 22 of DE 6–1.
2. This Court draws the events of that night from
the Sentencing Hearing transcript (which begins at
page 24 of DE 14–2), but for purposes of this
background section this Court does not limit itself
solely to the State’s proffer. This Court incorporates
both the Petitioner’s and the State’s versions of events.
This Court does so to give context to the Petitioner’s
claims for relief. As for whose version of events is
correct, this Court does not say. Other than what facts
the Petitioner’s conviction can be deemed to establish1,
the competing version of events was not presented to
the fact-finder---the jury---to resolve.
3. The Petitioner, himself, did not know the victim
personally, but his girlfriend did. His girlfriend and the
victim were co-workers at a car dealership. Both were
paid on commission and in a way that placed them in
competition with each other for income. According to
their immediate supervisor, the victim not only
excelled at booking customers for the dealership’s
service department, but he did so in a way that ensured

1

A no-contest plea “admits nothing” for purposes of subsequent
proceedings. See United States v. Flowers, 664 Fed. Appx. 887,
888–89 (11th Cir. 2016).

App. 15
credit for the business. When the victim left to work
elsewhere, the girlfriend’s commission income rose. The
victim later returned to the dealership to resume his
job, and the relationship between he and the
Petitioner’s girlfriend soured as her income dropped
back down. She complained to her supervisor about the
way the victim was claiming commission credit, but the
supervisor saw no reason to intervene in her favor. In
response to her complaints, the girlfriend alleges, the
victim began to retaliate against her through acts of
vandalism and sexual harassment.
4. At work she obtained the victim’s residential
address. She wrote it down on a piece of paper, brought
it home, and stuck it to the refrigerator door. When the
Petitioner left home on the night of the attack, he took
that note with him.
5. The Petitioner left his house that evening and
went to his place of work to make repairs on his truck
after business hours. The Petitioner worked as an auto
mechanic. Shortly before midnight he left his
workplace and drove to a bar. There he drank a lot and
in a relatively short period of time. He left the bar by
1:00 or 1:30 in the morning and drove to the victim’s
home. The Petitioner said that earlier on his way to his
workplace he had driven past the victim’s house but he
did not stop at that time.
6. There is no dispute about the Petitioner’s
underlying motivation for going over to the victim’s
home. The Petitioner wanted to confront the victim
about the workplace problems between his girlfriend
and the victim. He had the intention of talking to the
victim about finding a way for them to get along better

App. 16
at work, he explains. The record is not clear whether
the girlfriend knew about the Petitioner’s plan to
confront the victim or whether the confrontation and/or
attack was pre-planned.
7. At the Sentencing Hearing the Petitioner denied
pushing into the victim’s home. The State proffered
evidence that suggested otherwise. The victim’s father
told police that he had awaken to the sound of the
commotion and saw the Petitioner pin his son against
a wall inside of the house. The father retreated to call
9-1-1.
8. The Petitioner and the victim ended up outside.
The victim said he had fought the Petitioner back
outside. The Petitioner conceded that they were
wrestling and struggling outside of the home (but that
is where the physical fight began, he clarified). Also
found outside the house was a tire iron that law
enforcement linked to the Petitioner. The Petitioner
denied---or could not remember---using the tire iron,
however. Nor could the Petitioner explain its presence
at the scene. The victim said that the Petitioner hit
him with the tire iron after he had secured the
Petitioner in a choke hold. The victim says that he next
wrestled the tire iron away from the Petitioner.
9. The Petitioner asserted that while the victim had
him in a choke hold, the victim called out to his father
to get a gun. That is when the Petitioner pulled his
pocketknife out and began stabbing the victim. The
implication seems to be that after the victim had taken
the advantage in the fight, the Petitioner reacted in
self-defense mode.

App. 17
10. Whatever motivated the Petitioner to use his
pocketknife, the record is clear that the victim suffered
severe wounds from those stabbings. He was stabbed
eleven times, and part of his ear lobe was cut off. He
lost a lot of blood at the scene. The victim claims
lingering physical impairment and inability to work.
The victim reported substantial income loss and
medical debt.
11. Law enforcement responded quickly to the
father’s 9-1-1 call for help. The Petitioner attempted to
flee the scene when he heard sirens. Police stopped him
before he could leave and arrested him. Law
enforcement interviewed him post-Miranda. Law
enforcement also interviewed his girlfriend.
12. On January 7, 2009 the Petitioner was charged
by way of an Information (DE 14–1) with the offenses
of attempted felony murder, burglary of a dwelling with
an assault or battery while armed, attempted first
degree murder with a weapon, and aggravated battery.
Circuit Judge Sherwood Bauer presided over the
criminal case. On July 27, 2009 Assistant Public
Defender John Lithgow filed a Notice of Appearance.
APD Lithgow took over after the Petitioner’s initially
retained private defense attorney, Mr. Kibbey, had
withdrawn his representation and after no other
privately retained defense attorney appeared in Mr.
Kibbey’s place.
13. Judge Bauer called the criminal case for trial on
October 5, 2009. The transcript of that proceeding
begins at page 82 of DE 6–1. At the docket call APD
Lithgow asked Judge Bauer to continue the trial. APD
Lithgow reported that the Petitioner was in contact

App. 18
with a private defense attorney, Michael Ohle, Esq.,
and that the Petitioner was “on the verge of retaining
him.” While APD Lithgow said that he, himself, was
ready for trial, he indicated that the Petitioner was less
than comfortable going to trial with him as his counsel.
APD Lithgow noted “the seriousness of the charges”
and opined that continuing the case to the next trial
docket would not be “inherently unreasonable.”
14. Judge Bauer denied the Petitioner’s motion to
continue the trial. Jury selection would begin later that
same day. While the judge did not bar the Petitioner
from substituting new counsel, he declined to continue
the trial to let that new counsel familiarize himself
with the case. Trial would continue as currently set
regardless of who represented the Petitioner.
15. At some point soon after the conclusion of the
docket call, APD Lithgow informed the judge that the
Petitioner would be changing his plea. The prosecutor
could not proceed directly to the Change of Plea
Hearing that morning because he first needed to confer
with his supervisor given the nature of the charges.
The judge therefore scheduled the Change of Plea
Hearing for 1:15 PM that afternoon. Should the change
of plea not go through, then jury selection would begin.
16. The Petitioner filled out the Felony Plea Form to
memorialize his change of plea. That document starts
at page 1 of DE 14–2. The Petitioner agreed to plead
“no contest” to Count Two (burglary of a dwelling with
an assault or battery while armed) and Count Three
(attempted second degree murder with a weapon). The
Petitioner affirmed his belief that the plea “is in my
best interest even though I am innocent of the charge,

App. 19
charges, or violations, or may have defenses to them”.
The Petitioner expressed understanding that the
length of sentence resulting from his conviction on
Counts Two and Three remained an open question and
could be as long as the maximum sentence allowed by
law. That maximum possible sentence, the Petitioner
acknowledged, was life. In return for his plea the
prosecutor agreed to dismiss Counts One (attempted
felony murder) and Four (aggravated battery).
17. The transcript of the Change of Plea Hearing
begins at page 8 of DE 14–2. The judge engaged in the
standard change of plea colloquy. This included asking
the Petitioner to confirm his understanding that the
sentence outcome remains an open question. The
Petitioner also affirmed that he is pleading no contest
in the belief that doing so is in his best interest and
uninfluenced by any promise or expectation about the
sentencing outcome.
18. Following the change of plea colloquy, the
prosecutor proffered the factual basis for the plea. The
prosecutor said that the State could prove beyond a
reasonable doubt that at 2:20 AM on December 6, 2008,
the Petitioner pushed his way into the victim’s home
soon after the victim had opened the door. The
Petitioner went inside the victim’s home armed “where
he committed the assault and battery on the victim.”
The prosecutor continued:
The fight escalated somewhat, ended up back
outside. Once outside the patio area the
[Petitioner] then took a tire iron and used it to
beat the victim about the head, neck and
shoulders. The victim was able to wrestle it

App. 20
away, at which point, the [Petitioner] then
stabbed the victim a total of at least . . . eight
times.
The prosecutor asserted that the Petitioner had “acted
with a depraved mind and in an attempt to kill the
victim, and the victim suffered significant injuries.”
19. Based on that proffer, the judge found a
sufficient factual basis for the plea. The judge also
found the Petitioner’s change of plea to have been made
freely, voluntarily, and knowingly. The trial court
convicted the Petitioner of the offenses of Count Two
and Three. The Petitioner had been out on bond, but
after the Change of Plea Hearing the judge remanded
him into custody. The severe sentence that the
Petitioner now was facing increased the flight risk, the
judge explained.
20. Four days after the Change of Plea Hearing,
Michael Ohle, Esq., appeared on the Petitioner’s behalf
and replaced APD Lithgow. Mr. Ohle appeared for the
purpose of sentencing. His Limited Notice of
Appearance is found at pages 35–36 of DE 6–1.
21. The Sentencing Hearing took place on
January 15, 2010. The Petitioner expressed remorse
and accepted responsibility for what he had done.
Despite his plea, the State requested life imprisonment
and argued that the circumstances of the crime and the
harm to the victim and his family warranted the
maximum possible sentence. The Petitioner highlighted
mitigating evidence---no criminal history, no violent
reputation, the influence of alcohol---and he disputed
certain facts of the State’s version of what happened.

App. 21
He denied having any intent to kill. He characterized
the events of that night as an altercation that went out
of control. The relevant witnesses took the stand
(except for the victim’s father who had passed away
soon after the attack).
22. Judge Bauer rendered his findings. He found the
evidence to suggest pre-meditation and a sophisticated
criminal conduct. He noted how but for law
enforcement’s very quick response, the victim easily
could have died. He considered the sentence in the
context of the burglary count (which offered the
lengthier maximum sentence: life). If Florida law
permits a life sentence for burglary without assault or
battery, then what, Judge Bauer asked, is the
appropriate length of sentence for the degree of
physical harm suffered in this case? Next he found the
need for imprisonment to outweigh the benefits of
restitution to the victim. Judge Bauer sentenced the
Petitioner to 840 months (70 years) for Count Two for
burglary of a dwelling with an assault or battery while
armed in violation of § 810.02(2)(a), Fla. Stat. He then
sentenced the Petitioner to 30 years for Count Three
for attempted second degree murder with a weapon in
violation of § 782.04, Fla.Stat., which is the maximum
permitted term of imprisonment for that offense. He
made the two terms of imprisonment run concurrently.
23. The Public Defender represented the Petitioner
on direct appeal. On appeal the Petitioner complained
about the prosecutor’s use of emotional and
inflammatory arguments to influence the judge and
complained about the prosecutor’s use of facts not in
evidence. They constituted fundamental error that

App. 22
deprived him due process and resulted in an unfair
sentence, the Petitioner argued. The appellate court
affirmed the Petitioner’s sentence in an unwritten
opinion. See Inchierchiere v. State, 63 So.3d 776 (Fla.
4th DCA 2011).
24. The Petitioner retained new counsel, Ashley
Minton, Esq., to file on his behalf a Rule 3.800(c)
Motion to Reduce or Modify Sentence. Because it was
a post-conviction motion, it was assigned to the trial
judge, Judge Bauer, for consideration.
25. The Petitioner moved to disqualify Judge Bauer.
In his Motion to Disqualify, the Petitioner referenced
comments that Judge Bauer had made in another case
that suggested his personal preference for sentencing
defendants to life where ever Florida law permits life
sentences, with the implication being that Judge Bauer
applies the maximum sentence regardless of whether
the conviction results from a jury verdict or a change of
plea. The comments came from a sentencing hearing on
March 12, 2008 (and thus before the Petitioner’s
Change of Plea Hearing on October 5, 2009 and before
his Sentencing Hearing on January 15, 2010). It was on
August 16, 2011 when his attorney, Ms. Minton,
listened to the recording of that sentencing hearing.
The Initial Motion for Disqualification of Judge starts
at page 55 of DE 6–1. The State opposed the motion,
arguing in part that the comments were made in
reference to a case involving firearm use and that since
then the trial judge has “on a number of occasions used
his discretion and chosen to not sentence a defendant
to life in prison when the crime involved a firearm.”
The State’s Response begins at page 58 of DE 6–1.

App. 23
26. Judge Bauer held a hearing on the Initial
Motion for Disqualification of Judge, the transcript of
which is found at DE 16–1. Afterwards he denied the
Motion on both procedural and substantive grounds.
That Order is found at pages 60–61 of DE 6–1. The
Petitioner then filed an Amended Motion to Disqualify,
which begins at page 62 of DE 6–1, that corrected for
certain procedural defects. Judge Bauer denied it on its
merits finding it to be legally insufficient. That Order
is found at page 66 of DE 6–1. That prompted the
Petitioner to petition Florida’s Fourth District Court of
Appeal for an emergency writ of prohibition. The
Petitioner’s Emergency Petition for Writ of Prohibition
is found at DE 14–8, and the appellate court denied it
on its merits without an opinion (DE 14–9).
27. Focus then returned to the Petitioner’s Rule
3.800(c) Motion. After holding a hearing on it, the
transcript of which begins at page 69 of DE 6–1, Judge
Bauer denied it on its merits. The victim remained
satisfied with the length of the Petitioner’s sentence
and doubted the Petitioner’s ability to pay restitution.
Judge Bauer found no grounds to support a sentence
reduction. The Petitioner appealed, but the Public
Defender withdrew its representation. The appellate
court affirmed the Motion’s denial. The appellate
court’s rulings on this case are found at DE 14–12 and
at page 81 of DE 6–1.
28. Now represented by Alvin Entin, Esq., the
Petitioner moved for Rule 3.850 post-conviction relief.
The operative pleading here is the Verified
Memorandum in Support of Sworn Motion for PostConviction Relief, the fourth iteration of the

App. 24
Petitioner’s Rule 3.850 Motion, filed on March 10, 2016
and found at DE 6–4. The record that the state postconviction court considered consisted of the Felony Plea
Form, the transcripts of the hearings to-date, and the
sworn and verified averments found in the Petitioner’s
fourth Rule 3.850 Motion. In that fourth iteration of his
Rule 3.850 Motion, the Petitioner averred the
following: That he had retained Michael Ohle, Esq.,
before the trial’s start date but Mr. Ohle still did not
show up for the docket call nor moved for a
continuance. That he lacked faith in APD Lithgow to
represent him at trial. That he changed his plea to nocontest because he was not allowed to proceed to trial
with Mr. Ohle as his attorney. Lastly that APD
Lithgow did not inform him of the trial judge’s
reputation for imposing harsh sentences such as giving
life sentences where ever Florida law permits them.
29. Circuit Court Judge Mirman---and thus not the
trial judge who convicted and sentenced the Petitioner
---denied the Petitioner’s Rule 3.850 Motion on its
merits. Judge Mirman ruled without an evidentiary
hearing but instead adopted the State’s Response
(which starts at page 7 of DE 6–1) and the State’s
citations to the existing record. Judge Mirman thereby
found the existing record conclusively to show the
Petitioner not entitled to relief. Judge Mirman’s Order
Denying Sworn Motion for Post-Conviction Relief
begins at page 1 of DE 6–1.
30. The Petitioner appealed the denial of his
Rule 3.850 Motion and all three claims for relief he
raised in it. He also sought remand for an evidentiary
hearing so that he could testify about retaining Mr.

App. 25
Ohle for trial and about his lack of faith in APD
Lithgow. He also wanted to testify that despite
knowing the potential sentencing range---from a
statutory minimum of 7.7 years to a statutory
maximum of life---he based his decision to plead no
contest on AFP Lithgow’s advice about what sentence
to expect. AFP Lithgow had told him to expect a
sentence no longer than 15 years in return for the nocontest plea but a life sentence if he went to trial and
lost. That advice was incorrect given Judge Bauer’s
reputation for harsh sentences, the Petitioner
complained.
31. The appeals court affirmed the denial of the
Rule 3.850 Motion. Regarding the Petitioner’s third
claim of ineffective assistance of counsel---about the
procedural defects in the Rule 3.800(c) Motion to
Reduce or Modify Sentence that Ashley Minton, Esq.,
had filed on his behalf---the appellate court found no
constitutional right to effective collateral counsel. (The
Petitioner does not raise this particular claim for relief
in his present § 2254 Petition.) The appeals court next
found the record to refute conclusively the Plaintiff’s
first two claims of relief. See Inchierchiere v. Florida,
214 So.3d 690 (Fla. 4th DCA March 29, 2017). It is
those two claims of ineffective assistance of counsel
that the Petitioner repeats in his present § 2254
Petition. They concern (1) APD Lithgow’s misadvice
about sentencing when he was deciding whether to
change his plea and (2) the failure of his privately
retained counsel, Mr. Ohle, to appear on the day when
the trial judge started the trial.

App. 26
32. The Petitioner now seeks relief in federal court.
The Petitioner argues that the state post-conviction
court wrongly denied those claims of ineffective
assistance of counsel. They are meritorious, he argues,
and he asks this Court to grant his § 2254 Petition. The
Petitioner asks to have his plea, conviction, and
sentence vacated.
TIMELINESS
33. Before considering the Petition’s merits, this
Court considers whether the Petition was timely filed.
Pursuant to 28 U.S.C. § 2244(d), the “AEDPA”, the
Petitioner must have filed his § 2254 Petition within
one year of the underlying state court judgment. The
Respondent asserts that the Petitioner’s underlying
conviction became final on August 23, 2011. That was
90 days after the state appellate court’s PCA opinion.
See Phillips v. Warden, 908 F.3d 667, 671–73 (11th Cir.
2018) and Bismark v. Sec’y, Fla. Dep’t of Corr., 171
Fed.Appx. 278, 279–80 (11th Cir. 2006). That started
the one-year AEDPA clock to run, giving him until
roughly August 23, 2012 to file his § 2254 Petition. See
Green v. Sec’y, Fla. Dep’t of Corrs., 877 F.3d 1244, n.3
(11th Cir. 2017) (applying the “anniversary method”).
34. The AEDPA clock does not run uninterrupted,
however. “The time during which a properly filed
application for State post-conviction or other collateral
review with respect to the pertinent judgment or claim
is pending shall not be counted toward any period of
limitation under this section.” 28 U.S.C. § 2244(d)(2).
In other words intervening state post-conviction court
proceedings generally stop---or “toll”---the one-year
AEDPA clock count-down. See generally, Jones v. Fla.

App. 27
Dep’t of Corrs., 906 F.3d 1339 (11th Cir. 2018) and
Dolphy v. Warden, 2016 WL 2996615 (11th Cir. 2016).
Such was the effect of the Rule 3.800(c) Motion to
Reduce or Modify Sentence that the Petitioner filed on
July 25, 2011. That motion remained pending until
April 2, 2013 when Florida’s appellate court issued its
mandate. The Rule 3.800(c) Motion tolled the AEDPDA
clock.
35. In practical effect that proceeding delayed the
start of the AEDPA clock. It was not until April 3, 2013
when the one-year count-down began. Thereafter 79
days of untolled time ran until June 21, 2013 when the
Petitioner filed his Rule 3.850 Motion.
36. The parties dispute how much tolling occurred
between the filing of that initial Rule 3.850 Motion on
June 21, 2013 and Florida’s appellate court’s mandate
on April 28, 2017. About three months after the
Petitioner had filed the initial Rule 3.850 Motion, the
state post-conviction court dismissed it for lacking an
oath. That dismissal did not bring the proceeding to
conclusion, however. The state post-conviction court
specified that the dismissal was “without prejudice to
refile” and gave the Petitioner until November 13, 2013
to comply. The state post-conviction court further
specified that its dismissal order was non-final and
non-appealable. The Petitioner re-filed his corrected
Rule 3.850 Motion (to include the omitted oath) timely
on November 7, 2013.
37. Three months later the state post-conviction
court dismissed his Rule 3.860 Motion again. This time
the dismissal was for being insufficiently pleaded. The
dismissal again was without prejudice: “Pursuant to

App. 28
Spera v. State, 971 So.2d 754, 761 (Fla. 2007), the
Defendant is allowed an opportunity to refile his
motion in good faith with legally and facially sufficient
claims.” The state post-conviction court gave the
Petitioner leave to re-file his motion (with an April 23,
2014 deadline). Like the one before, the dismissal order
was non-final and non-appealable.
38. The Petitioner re-filed his Rule 3.850 Motion on
April 14, 2014. About 21 months went by before the
state post-conviction court took action on it. The state
post-conviction court, now through a new presiding
judge, issued an order on January 29, 2016. In that
order the state post-conviction court accepted the
motion as filed. Nor did the court mention any noncompliance with the previous dismissal order. Instead
the court expressed new reasons for a Spera-based
dismissal. Citing Spera the court gave the Defendant
the “opportunity to refile a legally and facially
sufficient motion and memorandum.” It therefore
dismissed the motion without prejudice to file an
amended one within 60 days. The dismissal order was
non-final and non-appealable.
39. The Petitioner re-filed his Rule 3.850 Motion on
March 10, 2016---in what is the motion’s fourth
iteration. It was on the merits of this motion that the
state post-conviction court ruled. In its order dated
November 10, 2016 the state post-conviction court
found the Defendant not entitled to relief and denied
the motion. The order gave the Petitioner 30 days to
appeal, which he did. The state’s appeals court
affirmed the ruling per curiam. Its mandate issued on
April 28, 2017. Consequently “the limitation period

App. 29
remained tolled until the state appellate court issued
its mandate affirming the denial of the Rule 3.850
motion”. Bismark v. Sec’y, Fla. Dep’t of Corr., 171
Fed.Appx. 278, 280 (11th Cir. 2006).
40. Of note, the Petitioner pursued additional forms
of collateral relief in state court that this Court
excludes from the above procedural history. There is no
need to include them because they do not toll the
AEDPA clock any more than what the above-discussed
motions already do.
41. The one question that controls the AEDPA
timeliness question is the extent to which the Rule
3.850 Motion can be considered to have a tolling effect.
The answer to this question depends on how the law
regards the Spera-based dismissals. To summarize the
Respondent’s argument: there was not a “properly
filed” Rule 3.850 motion that was “pending” to toll the
AEDPA clock for a long enough time to make the
§ 2254 Petition timely. The Respondent counts in the
above procedural history a total of 765 days (or
alternatively 411 days) of untolled time, both of which
exceeds the 365 days allotted.
42. The answer to this question depends on the legal
significance of the several intervening dismissals. The
Respondent’s argument fails because those Sperabased dismissals were not final rulings. They did not
bring the Rule 3.850 proceeding to conclusion. Nor did
they give the Petitioner an appealable ruling. Brown v.
Fla. Attorney General, 2016 WL 5415092, *2 (M.D.Fla.
2016) confirms that Florida’s appeals courts regard a
Spera-based dismissal as unripe for appeal. To the
contrary, those “dismissals” gave the Petitioner leave

App. 30
to amend his Rule 3.850 Motion and leave to continue
pressing his claims for relief towards obtaining a later
ruling on the merits. The state post-conviction court
made clear that the dismissal was not a final decision
on the Petitioner’s claims for relief but rather a
procedural device for instructing the Petitioner to
amend his claims for relief. The way the Florida
Supreme Court describes this procedural device in
Bryant v. State, 901 So.2d 810 (Fla. 2005) mirrors how
a Rule 12(b)(6), Fed.R.Civ.P., dismissal of a civil
complaint carries with it leave to amend. See Silva v.
Bieluch, 351 F.3d 1045, 1048–49 (11th Cir. 2003)
(requiring courts to give a plaintiff leave to amend--unless it would be futile to do so). This Court sees other
instructive analogies. Cf. Mederos v. U.S., 218 F.3d
1252 (11th Cir. 2000) (finding that an amended § 2255
motion relates back to the timely-filed but procedurally
non-compliant first § 2255 motion). Cf. Johnson v.
Sec’y, Fla. Dep’t of Corrs., 2017 WL 2672551 (M.D.Fla.
2017) (finding a belated appeal to have a tolling effect
where the state court excuses the untimeliness and
rules on the merits).
43. With the exception of the first one, the state
post-conviction court based its dismissal orders on
Spera v. State, 971 So.2d 754 (Fla. 2007). The Spera
Court held that a Rule 3.850 movant is entitled to at
least one opportunity to amend a deficiently pled postconviction claim for relief (unless amendment would be
futile). The Spera Court continued that the opportunity
to amend could be given either within the case or by
way of leave to bring a successive proceeding. It thus
appears that regardless of which of the two procedures
is used to amend a Rule 3.850 motion, the goal is the

App. 31
same: to afford the movant his or her due process right
to amend a defectively pleaded claim. An amended
Rule 3.850 motion, moreover, relates back to the initial
motion. See Lukehart v. Buss, 70 So.3d 503, 517 (Fla.
2011). Spera and Lukehart suggest that the Petitioner
had a Rule 3.850 motion pending the whole time under
state law. Had the Petitioner not successfully amended
his Rule 3.850 Motion by the given deadline, then the
Respondent would have to ask the state post-conviction
court to enter a final order of disposition and deny his
claims for relief with prejudice. See Nelson v. State,
977 So.2d 710, 711-12 (Fla. 1st DCA 2008). This Court
notes that the state court accepted the Petitioner’s
fourth amended motion as is and ruled on its merits.
The state post-conviction court did not reject the fourth
amended Rule 3.850 motion as late---even though it
was filed well after the criminal conviction had become
final. See Rule 3.850(b), Fla.R.Crim.P. (giving a
criminal defendant two years after the conviction
becomes final to file the motion).
44. Some District Courts in Florida have used the
above line of reasoning to deem the time between a
Spera-based dismissal and the amended Rule 3.850
motion to be tolled for AEDPA purposes. See Peterson
v. Jones, 2015 WL 1061677 (N.D.Fla. 2015), Martinez
v. Crews, 2014 WL 12693744 (S.D.Fla. 2014), Barry v.
Crews, 2014 WL 6909410, *5 (N.D.Fla. 2014). Their
line of reasoning is that the state’s post-conviction
review process that the petitioner’s first Rule 3.850
motion initiated remains open until such time as the
state post-conviction court does render the final, casedispositive, and appealable order (and remains active
until the petitioner exhausts appellate-level review).

App. 32
This Court agrees. This Court does not find a Sperabased dismissal to pass the “test of finality”. A Sperabased dismissal does not constitute the end of judicial
labor in the case but rather leaves work for the court
still to do “to fully effectuate a termination of the cause
as between the parties directly affected.” See Brown,
supra (citing Green v. Tucker, 2013 WL 351870 (11th
Cir. 2013)). See also, Pratt v. Jones, 2017 WL 3405322,
*3 (N.D.Fla. 2017) (noting how a Spera dismissal is the
kind of dismissal that a petitioner “can cure” and how
it leaves “work for the state court to do”).
45. This Court notes two District Court decisions
that have answered this question in the Respondent’s
favor. See Overton v. Jones, 155 F.Supp.3d 1253, 1269
(S.D.Fla. 2016)2 and Green v. Tucker, 2013 WL 351870,
*3 (M.D.Fla. 2013). Having considered the issue de
novo, this Court finds Peterson, Martinez, and Barry
more persuasive. This Court finds this approach more
consistent with how Florida law treats the matter. See
Lowe v. Fla. Dep’t of Corr., 679 Fed.Appx. 756, 758
(11th Cir. 2017) (noting the deference that federal court

2

This Court takes judicial notice that the Overton decision that
this Court discusses above is currently pending before the
Eleventh Circuit on appeal, Eleventh Circuit Case No. 16-10654.
The District Court denied Mr. Overton a Certificate of
Appealability (“COA”). Therefore he asks the Eleventh Circuit for
one. As far as this Court knows, the Eleventh Circuit has not yet
decided whether to grant him a COA. It also is unknown whether
the Eleventh Circuit’s opinion in the Overton case will be an onpoint ruling that answers the dispositive question that this case
presents. Therefore this Court sees no reason to stay this case to
await the conclusion of the Overton appeal.

App. 33
gives in this context to the state court’s procedural
law).
46. This Court likewise finds that the first
dismissal---that gave the Petitioner leave to re-file his
Rule 3.850 Motion with an oath---also has a tolling
effect. While the Petitioner’s failure to comply with the
oath procedural requirement means that his initial
Rule 3.850 Motion was not “properly filed”, he did bring
it into compliance thereafter. Those amended motions
therefore relate back to the time of the initial motion in
a way that tolls the AEDPA clock. See Green v. Sec’y,
Fla. Dep’t of Corrs., 877 F.3d 1244 (11th Cir. 2017)
(applying Spera). Because the Petitioner began seeking
post-conviction relief before the AEDPA clock had run
out, he gets the benefit of having the tolling effect
relate back. Cf. Moore v. Crosby, 321 F.3d 1377 (11th
Cir. 2003). But see, Lowe, supra, (finding no relation
back effect).
47. Tolling the AEDPA clock for the full length of
time when the Rule 3.850 Motion was pending,
including the time of the non-final dismissals and
resulting amendments, better reflects both the
practical nature of those non-final dismissals and the
relation-back effect. Doing so also frees petitioners to
exhaust their claims for relief in state court fully before
going to federal court and without fear of the AEDPA
clock. This Court therefore finds that the AEDPA clock
was tolled the entire time between the initial filing of
the Rule 3.850 Motion (on June 21, 2013) to the
mandate’s issuance (on April 28, 2017).
48. Having settled that matter, this Court turns to
the greater question of whether the Petitioner filed his

App. 34
§ 2254 Petition within the one year period of time that
the AEDPA gives him. Seventy-nine days of untolled
time ran between the mandate that was issued on
April 2, 2013 and the initial filing of the Rule 3.850
Motion (on June 21, 2013). Eighty-one days of untolled
ran from the mandate of April 28, 2017 when the state
post-conviction court proceeding concluded and the
filing of the instant § 2254 Petition (on July 19, 2017).
Added together3, that means that a total of 160 days of
untolled time ran. That means the Petitioner filed his
Petition well within the 365 days allotted. This Court
therefore accepts his § 2254 Petition as timely filed.
STANDARD OF REVIEW
49. Title 28 U.S.C. § 2254(a) permits a federal court
to issue “a writ of habeas corpus in behalf of a person
in custody pursuant to the judgment of a State court”
if that custody is “in violation of the Constitution or
laws or treaties of the United States.” However 28
U.S.C. § 2254(d) limits a federal court’s ability to issue
a writ of habeas corpus for a state inmate. It does so by
raising the standard the petitioning state inmate must
meet to obtain federal habeas corpus relief. This Court
reviews below the elements of a successful § 2254(d)
claim for relief and the governing standard of review.
50. Section 2254 applies at the end of a greater
course of judicial review. Section 2254(d) assumes that
the Petitioner already exhausted his claims using the
3

This Court applies Rule 6(a), Fed.R.Civ.P., to count how much
time elapses between tolling triggering events during the span of
the post-conviction proceedings in state court. See Green v. Sec’y,
Fla. Dep’t of Corrs., 877 F.3d 1244, n.3 (11th Cir. 2017).

App. 35
state’s post-conviction avenues of relief to obtain an
adjudication on their merits. The Eleventh Circuit
directs the focus of inquiry to the last merits
adjudication by the state court. As applied to this case,
that is the unwritten PCA opinion that Florida’s
Fourth District Court of Appeal rendered to affirm the
denial of his Rule 3.850 post-conviction motion. Even
though the PCA adjudication is unwritten and thus
gives no explanatory basis, it still counts as a merits
determination, and it still is entitled to deference. See
Reed v. Sec’y, Fla. Dep’t of Corrs., 767 F.3d 1252, 1261
(11th Cir. 2014).
51. While the deference remains, the fact that the
Fourth District Court of Appeal offered no reasons for
the affirmance does affect the scope of review. In this
situation the reviewing federal court must “look
through” to the last adjudication that does provide a
relevant rationale. See Wilson v. Sellers, 138 S.Ct.
1188 (2018). As applied here, that means this Court
looks through to Circuit Court Judge Mirman’s Order
Denying Sworn Motion for Post-Conviction Relief dated
November 10, 2016 and which starts at page 1 of DE
6–1. Wilson instructs this Court to assume that the
appellate court adopted Judge Mirman’s reasoning and
rationale.
52. The next step in the analysis is to identify the
legal basis that entitles the Petitioner to habeas corpus
relief. That is, to identify the constitutional or federal
law that was violated. Section 2254(d)(1) narrows that
inquiry down to “clearly established Federal law, as
determined by the Supreme Court of the United
States.” The phrase “clearly established Federal law”

App. 36
refers to the holdings, as opposed to the dicta, of the
Supreme Court’s opinions in existence when the state
court decided the post-conviction claims. See Downs v.
Sec’y, Fla. Dep’t of Corrs., 738 F.3d 240, 256–57 (2013)
(adding that it includes a binding circuit court decision
that says whether the particular point in issue is
clearly established Supreme Court precedent). For a
claim based on the ineffective assistance of counsel, for
example, the governing standard comes from the
Supreme Court’s seminal Strickland v. Washington,
466 U.S. 668 (1984), opinion.
53. Section 2254(d)(1) asks whether the state court’s
denial was “contrary to” that clearly established
Federal law. The phrase “contrary to” means that the
state court decision contradicts the Supreme Court on
a settled question of law or holds differently than the
Supreme Court on a set of materially indistinguishable
facts. See Downs, 738 F.3d at 257. A state court’s
decision can be contrary to the governing federal legal
standard either in its result (the denial of relief) or in
its reasoning.
54. Section 2254(d)(1) also asks the reviewing
federal court to determine whether the state court’s
denial “involved an unreasonable application of” that
clearly established federal standard. An unreasonable
application of federal law is not the same as a merely
incorrect application of federal law. See Downs, 738
F.3d at 257. It tests whether the state court’s
application of the legal principle was objectively
unreasonable in light of the record before the state
court at the time. An objectively unreasonable
application of federal law occurs when the state court

App. 37
identifies the correct legal rule but unreasonably
applies, extends, or declines to extend it to the facts of
the case. See Putnam v. Head, 268 F.3d 1223, 1241
(11th Cir. 2001).
55. Section 2254(d)(1) tests the legal correctness of
the state court’s decision, but it does so through a
highly deferential lens. The reviewing federal court
does not “grade” the state court’s decision. The degree
of error must be substantial and beyond dispute. The
state court’s decision survives § 2254(d)(1) review so
long as some fair-minded jurists could agree with the
state court, even if others might disagree. See Downs,
738 F.3d at 257.
56. While subsection (1) of § 2254(d) tests the legal
correctness of the state post-conviction court’s denial of
relief against controlling federal case law,
subsection (2) of § 2254(d) sets forth the standard by
which a federal court reviews the state post-conviction
court’s findings of fact. Section 2254(d)(2) asks whether
the state post-conviction court based its denial “on an
unreasonable determination of the facts” based on the
evidence before it at the time.
57. As with the § 2254(d)(1) legal analysis, a
reviewing federal court is to consider the state court’s
findings of fact through a deferential lens. The state
court’s finding of fact is not unreasonable just because
the reviewing federal court would have reached a
different finding of fact on its own. So long as
reasonable minds might disagree about the finding of
fact, the state court’s finding stands. See Downs, 738
F.3d at 257. Indeed the state court’s fact
determinations are presumed to be correct. Section

App. 38
2254(e)(1) places the burden on the Petitioner to rebut
that “presumption of correctness by clear and
convincing evidence.” Even if the state post-conviction
court did make a fact error, its decision still should be
affirmed if there is some alternative basis sufficient to
support it. See Pineda v. Warden, 802 F.3d 1198 (11th
Cir. 2015).
58. Obviously then § 2254(d) creates a standard of
review that is highly deferential to the state court’s
denial of the claim. The reviewing federal court must
give the state post-conviction court the benefit of the
doubt and construe its reasoning towards affirmance.
See Lynch v. Sec’y, Fla. Dep’t of Corrs., 776 F.3d 1209
(11th Cir. 2015). To warrant relief under § 2254(d), the
Petitioner must show that the state court’s ruling was
so lacking in justification that there was an error well
understood and comprehended in existing law beyond
any possibility for fair-minded disagreement. The
purpose of § 2254(d) is to “guard against extreme
malfunctions in the state criminal justice systems, and
not as a means of error correction.” See Downs, 738
F.3d at 256. This is the degree of error the Petitioner
must show before this Court may override the state
post-conviction court’s decision and overturn the
finality of the conviction and sentence.
59. In other words the reviewing federal court
should not consider the claim de novo. It is only if the
Petitioner can satisfy § 2254(d)---and it is his burden of
persuasion to do so---may this Court decide the claim
independently and without deference. To prevail on a
habeas corpus claim at the de novo stage of review, the
Petitioner must show this Court how his custody

App. 39
violates the Constitution or federal law. To do so the
Petitioner “is not necessarily required to prove that he
is entitled to relief solely on the basis of the state-court
record”; the District Court should consider whether an
evidentiary hearing is needed. Arvelo v. Sec’y, Fla.
Dep’t of Corrs., 788 F.3d 1345, 1349 (11th Cir. 2015).
Having undertaken that consideration, this Court finds
no basis for conducting an evidentiary hearing to
develop the record further at the federal level of review.
THE PETITIONER’S CLAIMS FOR
HABEAS CORPUS RELIEF
60. The Petitioner challenges his conviction and
sentence collaterally on the basis that his counsel was
ineffective in defending him. Consequently it is the
Strickland opinion (and its subsequent interpretative
case law) that sets forth and defines the actionable
federal right.
61. Implicit in the Sixth Amendment’s guarantee of
legal representation in a criminal proceeding is the
guarantee of minimally competent representation. The
U.S. Supreme Court has “established a two-prong test
for deciding whether a defendant has received
ineffective assistance of counsel. The defendant must
show (1) that counsel’s performance failed to meet an
objective standard of reasonableness, and (2) that the
defendant’s rights were prejudiced as a result of the
attorney’s substandard performance.” Gomez-Diaz v.
U.S., 433 F.3d 788, 791 (11th Cir. 2005) (citing the
seminal opinion of Strickland v. Washington, 466 U.S.
668 (1984)) (internal citations omitted). See also,
Gordon v. U.S., 518 F.3d 1291, 1297 (11th Cir. 2008).

App. 40
62. To satisfy the “deficient performance” element,
the defendant---here called the Petitioner---must show
that the quality of his counsel’s representation was
objectively unreasonable. That is, that it fell short of an
objective standard of reasonableness under prevailing
professional norms and in light of the full
circumstances and particular facts of the case at the
time of counsel’s action. The mere fact that counsel
made an error does not satisfy Strickland. Strickland
considers counsel’s performance to be deficient only if
the error was “so serious that counsel was not
functioning as the ‘counsel’ guaranteed the defendant
by the Sixth Amendment.” Reaves v. Sec’y, Fla. Dep’t
of Corrs., 872 F.3d 1137, 1148 (11th Cir. 2017).
63. A deficient performance inquiry also entails
consideration of the merit of the course of action that a
petitioner now says that the defense attorney should
have undertaken. An attorney’s failure to pursue a
particular strategy was not deficient if the strategy was
not viable or unlikely to succeed. See Arvelo v. Sec’y,
Fla. Dep’t of Corrs., 788 F.3d 1345 (11th Cir. 2015)
(holding that the viability of the omitted motion to
suppress informs both Strickland prongs). Conversely
the attorney’s performance may have been deficient if
the omitted motion could have been outcomedeterminative or decisive, or if “no reasonable lawyer”
would have foregone litigating it. See Spriggs v. U.S.,
703 Fed.Appx. 888 (11th Cir. 2017). See generally,
Danielsgale v. U.S., 2017 WL 5197037, *5 (S.D.Ga.
2017) (discussing governing case law and applying that
standard in the foregone motion to suppress context).

App. 41
64. In the context of a guilty plea, the Petitioner
“can show deficient performance by demonstrating that
his counsel did not provide him with an understanding
of the law in relation to the facts, so that he may make
an informed and conscious choice between pleading
guilty and going to trial.” Carver v. U.S., 722 Fed.Appx.
906, 910 (11th Cir. 2018) (internal citation omitted).
The decision whether to plead guilty is an important
phase in a criminal case, see Gordon v. U.S., 156 F.3d
376, 380 (2nd Cir. 1998), just as sentencing is another
important phase. Counsel’s role is to ensure that a
guilty plea, whereby a defendant waives his right to
trial and subjects himself to criminal sanction, is the
product of an informed, knowing, and voluntary choice.
See Ramirez v. U.S., 260 Fed.Appx. 185, 187 (11th Cir.
2007) and Finch v. Vaughn, 67 F.3d 909 (11th Cir.
1995). The decision whether to plead guilty entails a
complex calculus of competing factors. That decision is
made, moreover, without foreknowledge of such
important factors as the strength of the prosecutor’s
case-in-chief, how the jury will decide the case, and the
ultimate sentencing outcome.
65. A reviewing federal court should be highly
deferential when it scrutinizes counsel’s performance.
It is strongly presumed that the attorney’s
representation falls within that wide range of service
that is considered reasonable. For the attorney’s
strategic choices made after a thorough investigation of
the law and facts and after weighing plausible options,
that presumption is virtually unchallengeable. Even
strategic choices made without a complete
investigation are presumed reasonable if counsel was
reasonably limited in the ability to develop the matter

App. 42
further. See Downs, 738 F.3d at 257–58 and 262–63. In
effect the deference given to counsel’s performance
when combined with § 2254(d)’s deference creates a
doubly deferential standard of review. Under this
doubly deferential standard of review, this Court need
only look for some reasonable argument why counsel’s
representation was not deficient for it to deny the
Petitioner’s claim. See Downs, 738 F.3d at 258.
66. The Petitioner also must satisfy the prejudice
element. The Petitioner must show a reasonable
probability that the outcome would have been different
had his attorney not made the complained-of error. A
reasonable probability is a probability sufficient to
undermine confidence in the outcome. See Morris v.
Sec’y, Dep’t of Corrs., 677 F.3d 1117, 1127 (11th Cir.
2012). The likelihood of a different result must be
substantial, not just conceivable. As applied here, the
Petitioner must demonstrate a reasonable probability
that had his defense counsel took different actions, the
plea process would have had a different outcome. See
Moss v. U.S., 2010 WL 1571199 (S.D.Fla. 2010). That
is, he would have persisted in his not guilty plea and
gone to trial rather than change his plea to no contest.
67. In this particular case the prejudice inquiry asks
whether the outcome would have been better had the
Petitioner eschewed the chosen strategy (to plead no
contest in the hope for a more lenient sentence) and
had gone to trial instead (at the risk of a lengthier
sentence). This type of prejudice inquiry entails
anticipating the likelihood of a favorable trial outcome
(whether it be a full acquittal or a partial acquittal that
results in a sentencing exposure less than what his no

App. 43
contest plea secured). It entails considering the merits
and viability of that choice. See Lynch v. Sec’y, Fla.
Dep’t of Corrs., 776 F.3d 1209, 1218–19 (11th Cir.
2015). It entails considering how the trial option would
have affected the full calculus behind the Petitioner’s
decision whether to plead no contest. See Premo v.
Moore, 562 U.S. 115 (2011) and Spriggs v. U.S., 703
Fed.Appx. 888 (11th Cir. 2017). See also, Lee v. U.S.,
137 S.Ct. 1958 (2017). The Petitioner’s post-hoc
assertion that he would have preferred going to trial is
insufficient, by itself, to establish prejudice under the
Strickland standard. There must be something in the
record contemporaneous with that decision that
corroborates it. See Cedeno-Gonzalez v. U.S., 2018 WL
6444510, *1 (11th Cir. 2018). It also must have been
rational for the Petitioner to eschew the potential
benefits of the no contest plea and to assume the risks
of going to trial. See Carroll v. Sec’y, Dep’t of Corrs.,
2017 WL 6536738 (M.D.Fla. 2017).
68. In other words the prejudice inquiry focuses on
the Petitioner’s state of mind at the time. It entails an
objective consideration of the calculus that he was
facing. It also entails consideration of any points of
particular subjective importance to the Petitioner at
the time. Other factors relevant to the decision-making
calculus include the trial result that the Petitioner had
anticipated, the relative strength of the prosecutor’s
case against the Petitioner’s defenses, benefits secured
by the plea and plea negotiations, and the potential
sentencing outcome. See Felix v. U.S., Case No. 1314464-CIV-ROSENBERG/WHITE (S.D.Fla. Oct. 1,
2014) (Report and Recommendation found at DE 15
and summarizing the applicable case law at pp. 10–11).

App. 44
Lee, supra, clarifies that the focus is on the change of
plea decision and how the attorney’s error affected that
decision. The inquiry does not compare the difference
in sentencing outcomes between going to trial and
pleading guilty. (Arvelo, supra, further clarifies that
the prejudice inquiry is made without regard to the
length of the post-plea sentence.) Nor is there an
automatic, per se rule that a weak defense always
makes the choice to go to trial irrational. The habeas
corpus court must consider the possibility that some
other factor---a particular consequence of conviction
such as deportation, for example---may have been of
particular importance to the defendant and the
attorney’s erroneous advice on that point may have
been critical to the defendant’s decision. See also,
McCoy v. Louisiana, 138 S.Ct. 1500 (2018) (giving the
ultimate decision whether to plead guilty or to go to
trial to the defendant to make).
69. The Petitioner therefore must demonstrate both
professional error and a prejudicial effect on the
proceedings, and the failure to demonstrate either is
fatal to the claim. The Petitioner must show that he
was denied a fair proceeding, not a perfect defense. It
is the degree of ineffectiveness that calls the reliability
of the proceeding into doubt. The ineffectiveness must
be of constitutional proportion. Strickland does not
permit redress for technical errors seen with the
benefit of hindsight from an after-the-fact review of the
proceeding.
70. There is an additional policy that applies to the
consideration. Case law expresses a strong policy
towards fostering stability of convictions that result

App. 45
from guilty pleas. (For purposes of this § 2254 analysis,
the Petitioner’s no-contest plea is the equivalent of a
guilty plea. See Carrol v. Sec’y, Dep’t of Corrs., 2017
WL 6536738 (M.D.Fla. 2017).) “When a defendant
pleads guilty, his declarations under oath carry a
strong presumption of truth.” Cedeno-Gonzalez, 2018
WL 6444510 at *1). The governing differential
standard of review fosters that stability.
71. Taken together, the standard that the Petitioner
must meet to overcome § 2254(d) deference and to meet
Strickland’s definition of ineffective assistance is very
high. The Eleventh Circuit stresses how difficult it is
for the Petitioner to establish that the state postconviction court was unreasonable to reject his
ineffective assistance claim. See Reaves v. Sec’y, Fla.
Dep’t of Corrs., 872 F.3d 1137, 1157 (11th Cir. 2017).
DISCUSSION
72. The Petitioner contends that he changed his
plea to no-contest (thereby deciding to avoid trial)
because he did not feel comfortable going to trial with
AFP Lithgow as his defense attorney. The Petitioner
contends that his decision to change his plea to nocontest also was influenced by incorrect sentencing
advice. His attorney told him to anticipate a sentence
no longer than 15 years, and it was that faulty advice--overestimating the benefit of pleading no-contest--that influenced his decision. Had his attorney informed
him that the trial judge is a harsh sentencer regardless
of how defendants plead, he would have preferred to
take his chances at trial.

App. 46
Claim 1:
Whether privately-retained counsel (Mr. Ohle)
provided ineffective assistance by failing to
appear at the trial’s docket call.
73. The Sixth Amendment of the U.S. Constitution
gave the Petitioner the right to hire his counsel of
choice. However that right is not without limitations.
A criminal defendant’s right to (privately retained)
counsel of choice is balanced against the needs of
fairness and calendar demands, and a trial court has
wide latitude is weighing those competing concerns out.
See U.S. v. Gonzalez-Lopez, 548 U.S. 140 (2006). In his
discussion of the Motion to Continue, Judge Bauer
recalled giving the Petitioner time to find replacement
counsel. After no new private counsel appeared by the
deadline, Judge Bauer appointed the Federal Public
Defender. Three months had passed since then, and the
trial’ start date now was at hand.
74. The Petitioner raised no constitutional choice-ofcounsel objection before the appellate court on direct
appeal. Nor is the question of whether Judge Bauer
wrongly deprived the Petitioner of his constitutional
right to the counsel of his choice before this Court now
to resolve. The Petition raises instead a different Sixth
Amendment constitutional right: the right to effective
representation.
75. To answer whether the Petitioner was deprived
of that right, this Court applies the Strickland
standard. The first prong of the Strickland analysis
asks whether Mr. Ohle acted deficiently by not
appearing at docket call. This Court notes the

App. 47
possibility that the Petitioner may have retained Mr.
Ohle before the trial start date4. This Court notes that
on October 1, 2009 (four days before the docket call) a
$5,000 cashier’s check was sent to Mr. Ohle’s office.
This Court gives the Petitioner the further benefit of
assuming that perhaps Mr. Ohle should have attended
the combined docket call and Motion to Continue
hearing (assuming, of course, that Mr. Ohle actually
knew of that proceeding). Even if the Petitioner could
demonstrate deficient performance after construing the
above two points in his favor, he still cannot establish
Strickland prejudice.
76. Judge Bauer made clear that the trial would
begin that day regardless of who represented the
Petitioner. In other words Judge Bauer did not deny
the Motion to Continue because Mr. Ohle was absent.
It follows then that no direct causal relationship exists
between Mr. Ohle’s absence and the Petitioner’s
decision to change his plea. (The Petitioner’s lack of
confidence in AFPD Lithgow is a different matter
unrelated to whether Mr. Ohle had appeared or not.)
77. Nor does this Court see prejudice from the
Petitioner having to proceed to trial with AFPD
Lithgow. For whatever reason the Petitioner was
dissatisfied with AFPD Lithgow, there is no indication
that AFPD Lithgow was unprepared. He had been
working on the Petitioner’s case for three months. He
had fully developed the defense case, and there was

4

However the state post-conviction court found that the Petitioner
had not yet retained Mr. Ohle at the time of the docket call, this
Court adds.

App. 48
nothing left to do. Had Mr. Ohle appeared on the day of
docket call, trial still would have started that day. Had
the Petitioner actually gone to trial, it would not have
been rational for him to replace AFPD Lithgow (who
was the attorney who had developed his defense case)
with Mr. Ohle (who would have been starting on the
very first day of trial). As Gonzalez-Lopez explains,
supra, what would have been the objectively rational
choice is a relevant factor for determining Strickland
prejudice.
78. Another factor that runs contrary to finding
prejudice is the absence of any statement or objection
by the Petitioner during his change of plea colloquy
that would suggest some sort of pressure or duress. The
Petitioner did not say he felt pressured either by the
circumstances generally or by his personal
dissatisfaction with AFPD Lithgow, specifically, to
change his plea in order to avoid trial.
79. This Court also notes that the Petitioner does
not accuse AFPD Lithgow of failing to advise him at all
about the change of plea decision. To the contrary, the
quick turn-around between the denial of the Motion to
Continue and the announcement of the plea change
implies that AFPD Lithgow and the Petitioner both
were prepared for it. The Petitioner instead complains
about one particular facet of the plea advice---about the
length of sentence to expect---which he says was
incorrect.
Claim 2:
Whether AFPD Lithgow ineffectively advised
the Petitioner about sentencing expectations

App. 49
when the Petitioner was deciding whether to go
to trial or to change his plea to no-contest?
80. The Petitioner contends that AFPD Lithgow
incorrectly advised him about the sentencing outcome.
The Petitioner complains that AFPD Lithgow advised
him to expect a sentence of no longer than 15 years if
he changed his plea to no-contest but to expect a life
sentence should he go to trial and lose. This Court finds
this claim contradicted by the change of plea record.
Both the Change of Plea Hearing and the Felony Plea
Form informed the Petitioner---and he expressly
affirmed his understanding of such---that the length of
his sentence remained an open question and could not
be predicted with certainty. The Petitioner thereby was
informed of the limit on any sentence prediction or
expectation. However accurate the sentence prediction
later might prove to be, the Petitioner knew that any
sentence within the statutory range remained a
possibility.
81. This Court therefore finds this claim to fall short
of the Strickland standard. First AFPD Lithgow’s
sentencing advice was not necessarily unreasonable. A
sentence of up to 15 years’ length for the two charges
may have been entirely reasonable to expect (so long as
the Petitioner also kept in mind that sentencing
remained an open question). Therefore it does not
necessarily follow that AFPD Lithgow performed
deficiently in giving that advice. Even if he
underestimated the length of the anticipated sentence,
“the law is clear that an inaccurate prediction about
sentencing alone will generally not be sufficient to
sustain a claim of ineffective assistance of counsel.”

App. 50
Osborne v. U.S., 2011 WL 13104105, *11 (S.D.Fla.
2011) (citing U.S. v. Pease, 240 F.3d 938, 940–41 (11th
Cir. 2001)). To the extent AFPD Lithgow may have
expressly or implicitly promised a guaranteed sentence
or the extent the Petitioner perceived his advice about
the expected sentence’s length as such, the change of
plea colloquy cured any such false impression. See id.
Therefore this Court finds no prejudice either.
82. What AFPD Lithgow should have advised him
instead, the Petitioner contends, is that Judge Bauer
has a reputation of being a harsh sentencer who is
more likely to give a life sentence than not. Had he
known that, the Petitioner asserts, he would have
preferred to defend himself at trial. Whether the
Petitioner can establish the deficient performance
prong is doubtful. It requires a showing that Judge
Bauer did have such a reputation and that AFPD
Lithgow did or should have known of it.
83. Regardless, even if the Petitioner can
demonstrate deficient performance, he still cannot
demonstrate prejudice. Based on what the Petitioner
knew at the time, he does not convince this Court that
that additional information would have persuaded him
to go to trial. First the preclusive effect of the change of
plea colloquy discussed above applies with equal force
here. The Petitioner was directly instructed that no
advice about sentence expectations---whether for a
shorter or longer period---could be guaranteed and that
the actual sentence to be imposed remained an open
question. Even if AFPD Lithgow had advised the
Petitioner that Judge Bauer is a harsh sentencer, the
Petitioner knew that AFPD Lithgow could not

App. 51
definitively promise that the actual sentence would be
at the high end. Because it was not a foregone
conclusion that Judge Bauer actually would sentence
the Petitioner harshly (meaning at the high end of the
permitted range), AFPD Lithgow could not definitively
exclude the possibility of leniency or an unexpectedly
shorter sentence. It would have been reasonable for the
Petitioner to expect that pleading no-contest to just two
of the four counts at least would make a shorter
sentence more likely than if he lost at trial on all four
counts. In retrospect, based on what he knows now, the
Petitioner may feel that he had nothing to lose at trial.
He did have something to lose, however: the better
chance at a shorter sentence.
84. Nor does this Court see how eschewing the
benefits of a no-contest plea and going to trial would
have been the more rational choice. The Petitioner does
not rate the strength of his defense or his likelihood of
prevailing at trial. His defense would have to address
several unfavorable points. There is the issue of how he
deliberately sought out the victim with an aggressive
purpose and while intoxicated. Even if the altercation
spiraled beyond what he intended, he was the one who
had started it. This Court discerns no exculpatory
evidence or witness testimony in the Petitioner’s favor.
Moreover the Petitioner would be going to trial with
AFPD Lithgow (in whom he had little confidence) or
alternatively with Mr. Ohle (who presumably was not
prepared for trial) that same day. The trial judge had
refused to continue the trial.
85. Even if the Petitioner felt he had a strong
defense to raise at trial, the strategy of pursuing a

App. 52
reduced sentence may have been stronger. He had
several mitigating factors in his favor. The no-contest
plea leveraged them better. Few rational defendants
facing a possible life sentence would insist on
contesting guilt where there is no real chance of
acquittal and where admitting guilt improves the
chance of avoiding that life sentence. See McCoy v.
Louisiana, 138 S.Ct. 1500, 1514–15 (2018) (adapting
the observation that Justice Alito made in his dissent
from that case’s capital punishment context to the life
context of this case).
86. That was the calculus that the Petitioner was
facing at the time. As Lee and Hill instruct, this Court
must consider the full decision-making calculus that
the Petitioner faced at that time and all of its relevant
parts. Factors relevant to the decision include the
expected likelihood of success at trial, the difference
between the two expected sentencing outcomes, and the
objective reasonableness or wisdom of his available
choices. No one factor is dispositive by itself. However
when considered together and in the full context, here
they fail to corroborate the Petitioner’s present afterthe-fact assertion---however genuinely meant---that he
would have gone to trial had AFPD Lithgow advised
him differently.
87. While AFPD Lithgow could advise the Petitioner
about different potential sentencing outcomes, the
Petitioner knew that AFPD Lithgow could not promise
with certainty what the sentence actually would be.
The actual sentence to be imposed was left for the
sentencing judge to decide. The only known
information that the Plaintiff had was the sentencing

App. 53
range that Florida’s criminal statutes permitted. Those
factors were outside AFPD Lithgow’s control.
EVIDENTIARY HEARING
88. Lastly this Court considers whether the
Petitioner is entitled to an evidentiary hearing. This
Court begins by considering whether 28 U.S.C.
§ 2254(e) bars one. First, § 2254(e)(2) bars an
evidentiary hearing if the Petitioner had failed to
develop the factual basis of his claims in the state court
proceedings. That bar does not apply here because the
Petitioner did attempt to develop the factual basis of
his claims in the state post-conviction court proceeding
(but the state court denied his request). Second,
§ 2254(e)(1) presumes the state court’s fact
determinations to be correct. It does not apply here
either because the state post-conviction court made no
findings of fact about the issues for which the
Petitioner presumably seeks an evidentiary hearing
now. The state post-conviction court did not develop the
fact record to learn more about the circumstances of
Mr. Ohle’s retention nor did it hear the Petitioner’s
testimony about his preference between going to trial
versus pleading no-contest. To that extent the state
post-conviction court reached no fact-findings that
estop the Petitioner from developing the record here.
Consequently this Court finds those two provisions of
28 U.S.C. § 2254(e) not to bar his request for an
evidentiary hearing in federal court.
89. This Court considers next the standard that
governs the decision of whether to hold an evidentiary
hearing when the limitations of § 2254(e) do not apply.
The decision whether to grant an evidentiary hearing

App. 54
is left to this Court’s sound discretion. This Court must
review the available record and determine whether an
evidentiary hearing is warranted. To guide the
determination the Eleventh Circuit directs this Court
to consider several factors. First, this Court must
consider whether there are disputed facts concerning
the Petitioner’s claims for which the Petitioner did not
receive a full and fair hearing from the state postconviction court. Second, this Court must consider
whether the Petitioner’s fact allegations, if he could
prove them true, would entitle him to prevail on his
Petition. Third, in making that determination of
whether the Petitioner can prevail on the merits of his
claims, this Court also must keep in mind the
deference that § 2254 gives to the state post-conviction
court’s ruling. Fourth, this Court must consider the
nature of the Petitioner’s fact allegations. If they are
merely conclusory and unsupported by specifics, the
evidentiary hearing request may be denied. See Boyd
v. Allen, 592 F.3d 1274, 1304-05 (11th Cir. 2010).
90. The present record presents no disputes of fact,
per se, that require resolution. The Petitioner’s
criminal case unfolded in the way it did. The sole
reason for the evidentiary hearing would be to learn
more about Mr. Ohle’s retention and to hear the
Petitioner’s testimony about whether he would have
preferred to go to trial (1) had Mr. Ohle appeared at the
docket call to take over his defense and/or (2) had Mr.
Lithgow advised him differently about sentence
expectations. However this Court already takes the
Petitioner’s allegations about those two issues into
consideration in the merits analysis above. Having
done so and despite construing those allegations in the

App. 55
Petitioner’s favor, that merits analysis still fails to
show either claim to be meritorious. First, even if the
Petitioner in fact had retained Mr. Ohle before the
docket call, this Court does not find that fact to support
a finding of ineffective assistance of counsel based on
Mr. Ohle’s absence at the docket call. Second, even if
the Petitioner’s present (and after-the-fact) contention
about his trial preference is genuinely made, it still
fails to establish Strickland prejudice. Even if Mr. Ohle
had appeared and/or Mr. Lithgow had advised him
differently about sentence expectations, the Petitioner
still fails to persuade this Court that based on what
was knowable at that time, that (1) he would have
rationally perceived the trial option as presenting the
more likely advantageous outcome and (2) he actually
would have decided differently and chosen trial.
Moreover, even if the Petitioner could establish
Strickland prejudice, he still would have to
demonstrate an error that would support a finding of
“deficient performance” for Strickland purposes. Lastly,
this Court reaches that conclusion even before applying
§ 2254’s deferential lens. For all of those reasons this
Court does not find an evidentiary hearing warranted.
See Martinez, 684 Fed.Appx. at 926 (explaining that a
court “need not conduct an evidentiary hearing if the
record refutes the petitioner’s factual allegations,
otherwise prevents habeas relief, or conclusively
demonstrates that the petitioner was not denied
effective assistance of counsel”).
CONCLUSION
91. After what amounts in substance to a de novo
review, this Court finds no meritorious claim for

App. 56
habeas corpus relief. This Court sees no violation of the
Petitioner’s constitutional right to effective counsel
with respect to either Mr. Ohle or AFPD Lithgow. Of
course de novo review is not the standard of review
that governs the Petition. Section 2254 imposes
deference to the state court’s determinations of those
same claims for relief. If the Petitioner’s claims for
relief fail on de novo review, it follows then that they
fail under § 2254’s highly deferential standard of
review, too.
ACCORDINGLY, this Court recommends to the
District Court that the Re-Filed Petition for Writ of
Habeas Corpus (DE 5) be DENIED as to both claims
for relief.
The parties shall have fourteen (14) days from the
date of this Report and Recommendation within which
to file objections, if any, with the Honorable Robin L.
Rosenberg, the United States District Judge assigned
to this case. Failure to file timely objections shall bar
the parties from a de novo determination by the
District Court of the issues covered in this Report and
Recommendation and bar the parties from attacking on
appeal the factual findings contained herein. LoConte
v. Dugger, 847 F.2d 745, 749–50 (11 th Cir. 1988), cert.
denied, 488 U.S. 958 (1988).
DONE AND SUBMITTED in Chambers at Fort
Pierce, Florida, this 2nd day of April, 2019.
/s/ Shaniek M. Maynard
SHANIEK M. MAYNARD
UNITED STATES MAGISTRATE JUDGE

App. 57

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12468-D
[Filed October 28, 2019]
________________________________________________
KEITH INCHIERCHIERE,
)
Petitioner-Appellant,
)
)
versus
)
)
FLORIDA DEPARTMENT OF CORRECTIONS,
)
ATTORNEY GENERAL OF THE STATE
)
OF FLORIDA,
)
Respondents-Appellees.
)
_______________________________________________ )
Appeal from the United States District Court
for the Southern District of Florida
Before: MARTIN and JILL PRYOR, Circuit Judges.
BY THE COURT:
Keith Inchierchiere has filed a motion for
reconsideration, pursuant to 11th Cir. R. 22-1(c) and
27-2, of this Court’s September 26, 2019, order denying
his counseled motion for a certificate of appealability to
appeal the denial of his 28 U.S.C. § 2254 habeas corpus
petition. Upon review, Mr. Inchierchiere’s motion for

App. 58
reconsideration is DENIED because he has offered no
new evidence or arguments of merit to warrant relief.

